NO.
IN THE SUPREME COURT OF THE UNITED STATES

Al/ERN liEE BURNSIDE,

Petitioner,
v.
RANDEE REldERTS, WARDEN,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PROOF OF SERVICE
I, AVERN LEE BURNSIDE, the undersigned Petitioner in the above-entitled
case, do hereby declare that on Duly
2020, I have served copies of the
above Motion to Proceed In Forma Pauperis, Affidavit or Declaration in Support
of Motion, Petition for Writ of Certiorari w/accompanying Appendix and this
Proof of Service upon the following parties:
Assistant Attorney General
and
Office of the Attorney General
of Michigan, Attorney for Respondent
P.Q. Box 30217
Cansing, Michigan 48909-7717

Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543

by placing the same in sealed envelopes, properly addressed, and handed them to
prison officials at the Carson City Correctional Facility to be placed in the
prison's outgoing mail via the Michigan Department of Corrections mandated
legal mailing system, with first-class postage fully prepaid and affixed.
I declare under penalty of perjury that the forgoing is true and correct

Dated

'P~'IC’~'2~0
Avern Lee Burnside # 394665
In Propria Persona

